<html>
<title> - CHINA'S MARITIME AND OTHER GEOGRAPHIC THREATS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                       CHINA'S MARITIME AND OTHER
                           GEOGRAPHIC THREATS

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 30, 2013

                               __________

                           Serial No. 113-103

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
85-315                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7d1a0d123d1e080e091518110d531e121053">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             GREGORY W. MEEKS, New York
JEFF DUNCAN, South Carolina          ALBIO SIRES, New Jersey
PAUL COOK, California                BRIAN HIGGINS, New York
GEORGE HOLDING, North Carolina       ALAN S. LOWENTHAL, California
STEVE STOCKMAN, Texas


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Perry Pickert, Ph.D., retired career intelligence officer........     7
Peter Sandby-Thomas, Ph.D., visiting lecturer of political 
  science, University of Massachusetts Dartmouth.................    14
Mr. Rick Fisher, senior fellow, Asian Military Affairs, 
  International Assessment and Strategy Center...................    19
Mr. Steven Mosher, director, Population Research Institute.......    31

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Dana Rohrabacher, a Representative in Congress from 
  the State of California, and chairman, Subcommittee on Europe, 
  Eurasia, and Emerging Threats: Prepared statement..............     4
Perry Pickert, Ph.D.: Prepared statement.........................    11
Peter Sandby-Thomas, Ph.D.: Prepared statement...................    16
Mr. Rick Fisher: Prepared statement..............................    21
Mr. Steven Mosher: Prepared statement............................    34

                                APPENDIX

Hearing notice...................................................    48
Hearing minutes..................................................    49
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas:
  Prepared statement.............................................    50
  Questions submitted for the record and written responses from:.
      Peter Sandby-Thomas, Ph.D..................................    51
      Perry Pickert, Ph.D........................................    53
      Mr. Rick Fisher............................................    54


             CHINA'S MARITIME AND OTHER GEOGRAPHIC THREATS

                              ----------                              


                      WEDNESDAY, OCTOBER 30, 2013

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10 o'clock 
a.m., in room 2255 Rayburn House Office Building, Hon. Dana 
Rohrabacher (chairman of the subcommittee) presiding.
    Mr. Rohrabacher. Good morning. The hearing is convened. And 
I recognize myself for an opening statement. Red China--and I 
don't hesitate to call it Red China--is the threat of the 21st 
Century. Since its birth as a Communist country 64 years ago 
this month, untold misery has befallen the world's most 
populous nation. Millions were killed in establishing their 
Marxist-Leninist dictatorship. And millions have been killed 
since then, millions killed, for example, in the Cultural 
Revolution of 50 years ago, and in the regular repression 
since. Today its extravagant claims do not allow for autonomy 
of belief or systems unless those systems are within their own 
control of the dictators in Beijing. It has established a 
concerted effort against any religion that does not worship at 
the altar of Mao, be it any flavor of Buddhism, Christianity, 
or other faiths. The Falun Gong and the Uighurs have been 
singled out for special persecution.
    Some perhaps believe that Mao is a harmless print on a 
poster or a t-shirt. In reality, Mao joins the ranks of Hitler 
and Stalin as the 20th Century's worst characters in butchering 
millions of his fellow citizens.
    One of our witnesses, Steve Mosher, in his book, ``Hegemon: 
China's Plan to Dominate Asia and the World'' quotes Mao 
telling a stunned Khrushchev, ``So what if we lose 300 million 
people? Our women will make up for it in a generation.''
    Lest one think Mao a dusty old historical anachronism, 
foreign policy columnist Fareed Zakaria, if I got that right, 
in the Washington Post October 24th, ``It appears that the 
party is choosing older Mao methods of crackdown, public 
confessions, and purification campaigns.'' What exactly does 
that mean?
    There are millions of prisoners of conscience today in 
labor camps in China according to a new report by the Center 
for International Media Assistance, where the National 
Endowment for Democracy, ``China's media environment remains 
one of the world's most restrictive in 2012.''
    Crimes such as rumor mongering on the internet can land one 
in indefinite detention. Authorities censor and harass 
international reporters or deny their visa applications or 
renewals. Physical attacks on foreign media members are a 
disturbing and a growing trend. And their long reach extends 
overseas. One of our witnesses today, Steve Mosher, had his 
promising academic career in the United States as the first 
American social scientist allowed to carry out field work in 
Mao's China. It was derailed over some outspoken criticism of 
China some years ago.
    Today we look at China's external posture toward its 
bordering states. That is the purpose of this hearing. But 
China has menaced, threatened, and even attempted to absorb its 
neighbors, notably Tibet and Taiwan, and has clashes with 
virtually every bordering state. The subcommittee will examine 
China's threatening maritime and territorial claims.
    For those who attempted to dismiss the thought of a threat 
as being an overstatement, let's not forget that China expanded 
its land mass by 50 percent when it invaded and occupied Tibet 
in the 1950s. Notice the disturbing pattern.
    If China borders you or borders water that is anywhere near 
you, let's say the Pacific Ocean, it will assert every 
conceivable claim to wrest your sovereignty or territory from 
you, including threats, provocations, stunts, protests, and 
gunboat diplomacy, all while whining in the international 
forums that are available to it about its treatment, about how 
they're being treated. This is to say nothing of its routine 
conduct in international affairs: Industrial espionage; piracy; 
forced organ transplants by religious practitioners that it has 
murdered; IP violations; currency manipulation; and even bad 
and deadly dog food, I might add.
    In the New York Times magazine's Sunday, October 27th, in 
an article entitled, ``A Game of Shark and Minnow,'' the author 
writes,

        ``China's currently in disputes with several of its 
        neighbors. And the Chinese, having become decidedly 
        more willing to wield a heavy stick, there is a growing 
        sense that they have been waiting for a long time to 
        flex their muscles. And that time has finally 
        arrived.''

    Again, Farad Zakaria writes that, ``Diplomats have worried 
that China has been circulating new maps of the region in which 
a previously dotted demarcation line that China claims in the 
South China Sea,'' instead of a dotted line, it now is a solid 
line. This is far from a new problem. Yet, the situation has 
not reserved the scrutiny that it does seriously deserve.
    After a trip to the region, I reported to the House in late 
1998, ``The pattern of Chinese naval bases in the Spratly,'' 
meaning the Spratly Islands, ``shows an encircling strategy of 
energy-rich islands and intimidating military presence along 
the vital sea route.'' I argued then ``The U.S. Government must 
end its silence about the Chinese military buildup in the 
Spratly.'' Multiple administrations and Secretaries of State 
have, unfortunately, thought since then that we cannot disturb 
our second largest trading partner or that the situation they 
would hope will improve on its own.
    Worse yet, the New York Times magazine piece reports, ``The 
Americans pointedly refused to take sides in the sovereignty 
disputes.'' The magazine correctly notes, ``China's behavior as 
it becomes more powerful along with the freedom of navigation 
and control over the South China sea lanes, which are being 
threatened, will be among the major global political issues of 
the 21st Century.''
    I would argue that to believe China's apparent expansionism 
is accidental or inevitable sells our adversary short. And we 
helped create this monster, this threat, by granting a 
permanent normal trade relations with what was then and still 
is the world's worse human rights abuser. This is something we 
never did with the Soviet Union. We never granted most favored 
nation status with the Soviet Union. And that is why Soviet 
communism went down and why dictatorship in China has emerged 
as a great threat to all of us, not just its own people.
    There is a longstanding deliberate strategy in China to 
expand, provoke, challenge, and ultimately dominate the region 
and then the world. Stephanie Kleine-Ahlbrandt, the director of 
the Asia-Pacific programs at the United States Institute of 
Peace, said, ``Nothing in China happens overnight. Any move you 
see was planned and prepared for years, if not more. So, 
obviously, this maritime issue is very important to China.''
    Our witnesses today paint a bleak and compelling picture. 
Steve Mosher has written prolifically on our topic today. Perry 
Pickert describes China playing a far more sophisticated game 
of statecraft than what we are playing. And Rick Fisher states 
succinctly, ``We are in a cold war with China.'' Far from 
minding its own business, as a good neighbor, China--and that 
is what they would do if they were minding their own business. 
China, instead, is an international menace with grand designs. 
Marxism may be on its last ash heap of a history, but Marxist-
oriented one-party rule tragically has characterized China for 
more than 60 years.
    Our Pentagon's announced strategy of a strategic pivot to 
Asia will be hollow if we are not clear about the main threat 
in this theater. Its maritime claims are dubious. Its grand 
designs must be opposed by the free world if peace is to be 
preserved.
    [The prepared statement of Mr. Rohrabacher follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. And, with that, I would ask my ranking 
member for his opening statement.
    Mr. Keating. Well, thank you, Mr. Chairman, for holding 
this hearing. I would like to thank you and thank all of our 
witnesses for appearing today.
    I will make note that one of the witnesses is Dr. Peter 
Sandby-Thomas, a visiting professor from University of 
Massachusetts in my own district. And I appreciate your being 
here today, as I appreciate all of the witnesses for being here 
today and look forward to your testimony.
    We are joined by Representative Lowenthal. Welcome.
    The United States has a clear national interest in 
promoting the peaceful resolution of maritime and other 
territorial disputes in Asia. Since World War II, the United 
States has played the leading role in maintaining peace and 
stability in the Pacific. It is, therefore, appropriate that 
the United States have an active and direct role in resolving 
the disputes in the South and East China Seas. Yet, we must be 
sure that our policies and actions do not inadvertently 
heighten regional tensions.
    China's maritime and territorial disputes with its 
neighbors date back to conflicts of the Nineteenth and 20th 
Centuries. Most were seriously exacerbated by the tensions of 
the Cold War. In addition, most of these disputes have deep 
historical roots and are fought with bitter emotion. Achieving 
their peaceful resolution will not be easy. It is, therefore, 
essential that the United States continue to support a 
collaborative process free of aggression, coercion, or the 
threat of force amongst all parties involved. This will require 
patience, perseverance, and deft diplomacy on our part, even as 
tensions in the region continue to escalate.
    The United States has made clear it will uphold our 
security commitments and treaty allies and partners in the 
region. And we will make sure that we are strong in stating 
that. Now is not the right time to change that tact. In that 
regard, continued U.S. support for the development of a 
multilateral code of conduct between China and the association 
in southeast Asian nations is essential. A binding code of 
conduct would considerably reduce tensions in this region.
    I applaud the administration's effort to ensure freedom of 
the navigational rights in this region as well as new 
initiatives to help allies and partners strengthen their 
capacity to patrol and administer their territorial waters. I 
am, however, concerned over the impact that across-the-board 
budget cuts and related uncertainty will have on these 
important programs and U.S. projection in the region. I look 
forward to hearing our panelists' views on the immediacy of the 
threat posed by maritime disputes and the effectiveness of the 
U.S. policies in the region along with your own thoughts on how 
the United States might more effectively press claimants to 
peacefully resolve their differences.
    With that, I yield back, Mr. Chairman.
    Mr. Rohrabacher. We are joined by Mr. Lowenthal, but, Mr. 
Stockman, do you have an opening statement?
    Mr. Stockman. Just briefly. To our detriment, in the 1940s, 
we ignored Asia and didn't pay attention to it. And I think 
that was obvious when Pearl Harbor happened. Well, 
theoretically it caught us by surprise. And now again we seem 
to be putting the Asia problems on the back burner.
    When we visited with the Prime Minister from Japan, he 
expressed concern that America is losing its interest in Asia 
and its will to defend Asia and our allies, such as Japan. I 
also remember in 2008, the Olympics. One young man got up and 
screamed out,--this was in Tiananmen Square--``We are a nation 
of slaves. Where is America?'' And he was hauled off.
    And the reporter glibly said, ``Well, we don't know 
whatever happened to that young man.'' I think it is high time 
that we take more of a look at what is going on in Asia and be 
more sensitive and be more alert. I think down the road, by not 
following that path, we are going to end up in big trouble. And 
it will be very much like 9/11, where we wonder what happened, 
where were we. It will catch us off guard. Why didn't we 
connect the dots? Well, the dots are all there. We need to 
connect them.
    And I appreciate these gentlemen coming forward today and 
actually connecting the dots. And this is going to be part of 
the record that we are going to have. So when we look back on 
it, we can look at this record. And a lot of you will probably 
say, ``We told you so.'' So I appreciate you coming out today 
and giving your testimony. And I yield back the balance.
    Mr. Pickert. No. I am just pleased to be here.
    Mr. Lowenthal. I am pleased he is here, too.
    Mr. Rohrabacher. All right. Thank you, Mr. Lowenthal.
    Our witnesses, we have some very significant witnesses 
today. And what I am going to do is ask, with permission of the 
panel, that we place their very lengthy backgrounds and their 
credentials into the record. And so if we could just put their 
bios in the record? I am just going to announce them. And then 
we will proceed. And I would ask that you would be giving us 
about 5 minutes and then the rest of your testimony for the 
record. And then we will have some questions and answers.
    So first we have Mr. Perry Pickert. He is a Ph.D. and a 
retired intelligence officer and I guess a very continuing 
intelligent person. So, Doctor, would you please proceed? And 
then we will introduce the other witnesses. And your lengthy 
bio will be made a part of the record.
    Mr. Pickert. Thank you very much for inviting me.

STATEMENT OF PERRY PICKERT, PH.D., RETIRED CAREER INTELLIGENCE 
                            OFFICER

    Mr. Pickert. But I wonder how we can wake up my PowerPoint, 
which has been put to sleep. I will start. They should be able 
to push a button and turn on the computer, but I don't know 
what happened.
    Mr. Rohrabacher. Has someone hacked into our system?
    Mr. Pickert. Yes. The Chinese are here already and shutting 
me out. But I will begin anyway without the PowerPoint. I can 
run through it fairly quickly.
    Mr. Rohrabacher. It has showing up on a television set.
    Mr. Pickert. The term ``Great Game'' was coined in the 
early 18th Century to describe the strategy and tactics to 
protect India, the jewel of the crown of the British Empire, 
from a rising Russia. Beginning with Woodrow Wilson's Fourteen 
Points, the United States has advocated substituting universal 
international organizations and the rule of law for the great 
power competition and war.
    President Obama at the U.N. General Assembly this fall, 
stepping into the stage of one of the Great Games of this 
century, said, ``There is no Great Game to be won.''
    In this century, the United Nations system provides the 
normative and institutional structure for relations as well as 
the language of diplomacy. While Russia, China, and the United 
States have never fought a war against each other, the United 
Nations have provided the legal rationale and cover for actions 
of their military and clandestine services.
    This morning, I will survey the strategic landscape in Asia 
focused on a rising China's territorial claims and the 
implications for the United States. China and Russia view the 
world from a long-term perspective of the Russians as a 
chessboard, and the Chinese play Go.
    Mr. Rohrabacher. There you got it [referring to PowerPoint 
presentation].
    Mr. Pickert. I got it up but not connected to this yet. 
There we go. Now we have got it. Now it should work.
    I will use the traditional Chinese game of Go, which is 
played by placing stones on a board, black and white stones. 
They are not like chess pieces, which can go anywhere, but they 
essentially capture territory. Territory in this game is really 
the space between points, and the Go pieces are placed on the 
intersection of the squares.
    Traditional China is at the center of its own universe and 
over the centuries has grown from a very small tribe in central 
China to the outside. Its international relations were handled 
as family relations. And the outlying princes were ruled as if 
in a family, with the closer relatives closer and the further 
relatives further away. But on the outside, we're the 
barbarians who were ruled liked dogs, being rewarded and 
punished with bones, rewards; and sticks. The Ming dynasty 
extended throughout the whole of East Asia and established a 
system of tribute whereby the rituals of kowtowing and coming 
to the center with presents. Today the center is a U.N. General 
Assembly in New York, every year from October until December.
    Now, if you look at this map, we will go to look at the 
Senkaku Islands, which are the first territorial dispute. You 
will notice they can hardly be seen on this map. That 
exaggerates their size drastically. This is what the Senkakus 
look like in the picture. There are three small little islands.
    In Go terms, this would be played as a three-sided game of 
Go with a space. This game is almost completely finished. The 
contesting space out there now is the blank spaces between the 
lines. And those are called points. So that there is no real 
territory as ground. It is territorial space.
    This is what Taiwan looks at from this perspective. You can 
hardly find Quemoy and Matsu on a map, but you can see Taiwan 
off of the islands, a distance of the straits away. As a Go 
problem, this is the Goggle map of Quemoy and Matsu. It is on 
Google because it is Taiwanese territory and, therefore, is 
open to the word--but it is, you will see, completely 
surrounded on three sides, leaving only one open. In Go terms, 
this is called atari. When you bring someone into position 
where they are about to be surrounded, you are supposed to 
inform your opponent that they are in atari. Generally it is 
not necessary to put another stone there because you don't need 
to finish that off. You have got that territory able to be 
captured by one stone.
    These are fuel air explosives shot from artillery rounds in 
Syria today. The reason I say, ``Welcome to Grozny'' is that 
with this method, after Putin got tired of having an 
inconclusive battle in Chechnya, he used fuel air explosives to 
essentially level the town in 2000. Fuel air explosives are 
like napalm, which is blown by artillery shells. It spreads out 
and then is ignited after the cloud is lighted. That not only 
makes a big explosion, but it also sucks out the oxygen from 
the area. And, of course, they could use fewer explosives to 
blow Quemoy off the face of the Earth in 2 seconds.
    These are China's maritime claims in the South China Sea. 
In this case, the empty spaces usually are the specks out in 
the middle of the lake, which are the essentially disputed 
islands. The far red line shows where the disputes are. Viewed 
it as a Go game, you will see that these are the six parties 
about to contest over a little spot in there. The Chinese way 
of handling this will be to do it bilaterally, waiting for 
weakness on the part of one side, then taking the space.
    This is the Chinese latest surface-to-sir intermediate-
range ballistic missile. It has a fuel air explosive warhead 
and is called the aircraft carrier killer because, in fact, if 
it hit right on the aircraft carrier, it would be able to kill 
everyone on it and surround, and that would be the end of it. 
Of course, it is really just a big SCUD. And the Russians and 
the Chinese do not use single missile tactics. They use mass 
tactics. So they would fire eight to ten of these. This is the 
range of the missile, the intermediate ones. And that shows the 
range of all of the other. In the game of Go, this would 
essentially put the entire area that we were talking about 
under the range of non-nuclear ballistic missiles that can be 
fired. And they are mobile. So we have no clue where they are. 
And a response is preempted by the longer range potential of 
nuclear missiles which as you can see can hit the United States 
easily.
    This is the Tibetan Plateau. And you can see on this map 
that the center, the one little corner, of Tibet is the source 
of all of the rivers of Southwest Asia: India, China, Vietnam, 
Burma. The Chinese tactic with respect to this is to dam part 
of these rivers up in China. So at any time, they can simply 
turn off the water for Southeast Asia or let it out, causing 
floods. They have a series of dams in China. And there are 
quite a few dams that are built in cooperation with the other 
countries, which they are sponsoring.
    The India-China border is the furthest west. This is an 
area where the Go strategy is to ``seize the high ground.'' 
It's not really necessary for them to have forces on the area 
and if they were at Aksai Chin, they would be up at about 
14,000 feet needing oxygen equipment. So nobody ever actually 
sits up there, but they have skirmishes all of the time.
    Now we will turn to the U.N. system as a place for the 
competition of the Chinese world view. First you can see that 
the Russians also have a view of the U.N. That is the U.N. flag 
with a hammer and a sickle and the territory that they used to 
think they controlled. This is the way the Chinese view the 
U.N. system as they expand their influence over it.
    Now I will go through the specific organs of the U.N., but 
I am going to drop the Go analogy because it is a little 
complicated. The General Assembly is what I would call ``liars' 
poker.'' If you look on there, you will see Khrushchev with his 
boot on the table. He, of course, actually had two very fine 
Italian shoes on at the time and brought that along only as a 
prop. He didn't take off his shoe and pound it on the table. 
And Deng Xiaoping announced his strategy for the next 20 years. 
I will be through in 2 seconds here.
    The Security Council is strip poker. You go in, think one 
thing. And by the time that the Russians and Chinese get 
finished with the resolution, you get another.
    The Shanghai Cooperative Organization was created by the 
Chinese and the Russians for central Asia. You can see its logo 
is essentially the trace of Mongol Empire. I call this the KGB 
officers' and agents' traveling crap game.
    The Law of the Sea Convention has been signed by China and 
Russia. And the U.S. is not a member. So we don't participate. 
This will show you how the U.N. system allows you to stretch to 
the Pacific where you can see the Law of the Sea pioneer 
investors, the Chinese, the Russians, and the French, having 
staked out territory at the bottom of the ocean. The competing 
claim is the Clipperton Island claim, which the U.S. has based 
on the economic zone.
    Finally, my conclusion is how do you capture Kim's gun, 
which is in Lahore, Pakistan? And the answer is to recruit the 
Lama--as you see, he was sitting there--because you control the 
space by having the person who was controlling the person on 
the space.
    And this was Kipling's statement about the Great Game, the 
final bottom line, ``When everyone is dead, the Great Game is 
finished,'' not as we have seen the American view that it has 
been subsumed into the U.N. system.
    Thank you.
    [The prepared statement of Mr. Pickert follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. We are going to now go to the last witness 
because he happens to be the witness who was invited by the 
ranking member, and I would like Ranking Member Gideon to 
introduce his witness today.
    Mr. Keating. Thank you, Mr. Chairman.
    I won't go into great detail because time is precious 
today, but I do thank Dr. Sandby-Thomas for joining us today 
and to testify on these issues. I do think his own expertise 
will be self-evident. And, rather than delay with an 
introduction, I will just introduce Dr. Sandby-Thomas. Thank 
you.

 STATEMENT OF PETER SANDBY-THOMAS, PH.D., VISITING LECTURER OF 
    POLITICAL SCIENCE, UNIVERSITY OF MASSACHUSETTS DARTMOUTH

    Mr. Sandby-Thomas. All right. Thank you.
    Chairman Rohrabacher, Ranking Member Keating, members of 
the committee, thank you for the opportunity to testify before 
the Subcommittee on Europe, Eurasia, and Emerging Threats on 
this topic of vital national and geopolitical significance.
    Sort of to frame the discussion, I think it is important to 
consider the question of whether China's recent behavior, both 
maritime and beyond, should be construed as a threat. In sort 
of making that point, the purpose is to draw attention to the 
fact that China is emerging as a reasonable and possibly global 
power. And so in such a context, it is necessary to determine 
what types of behavior and conduct are justifiable and 
commensurate with this increasing power when you clarify this 
and do not provide the benefit in terms of assessing China's 
behavior in terms of what's threatening and what is, say, 
permissible.
    If we turn to China's military capabilities, it is clear 
that they have expanded rapidly in recent years. And that is 
aided in large part through a concerted effort to allocate 
increasing budget spending toward their military. And if we 
looked sort of within this, you can see that the People's 
Liberation Army has navy capabilities. They have been notably 
expanded. You have seen sort of significant milestones in terms 
of China's first aircraft carrier, plans for a second one, sort 
of details indicating that they have other sort of high-tech 
equipment, sort of guided missile destroyers, et cetera, et 
cetera. One of the aspects of this is that it is not always 
entirely clear how to determine the veracity of such reports, 
which in and of itself can be perceived as an issue in terms of 
transparency. And sometimes that leaves a void that gets filled 
by increased speculation.
    But, regardless of that, I think it seems clear that the 
navy is rapidly developing and is on course to be the dominant 
maritime power in east Asia. The time frame is not exactly 
clear, but it seems within the next 10 to 20 years. There 
doesn't appear to be another rival that is capable of sort of 
challenging it. The only sort of reasonable one would be Japan, 
but it is obviously sort of hobbled by constitutional 
restrictions.
    At this point, I think, though, the focus is often sort of 
solely on the hardware. And that is, of course, important, but 
it is also important to consider sort of how seaworthy China's 
vessels are. That is not exactly clear. These things aren't 
obviously battle-tested. They also have a limited schedule of 
sea operations. And I think another aspect to consider is, say, 
the sort of quality of the mariners that China has. Again, that 
is something that can be put down to a lack of practice, 
certainly when you compare it to, say, the U.S. naval 
capabilities.
    Nevertheless, the expansion of naval capabilities has 
raised concerns, particularly over China's intentions. And this 
has led to, you know, a different--I was drawing different 
conclusions. Some make the point that this expansion 
definitively reflects an intention to exert regional dominance. 
And I think that this--it is not obviously something that can 
necessarily be ruled out.
    Certainly, you know, why does China invest all of this 
money and certainly equipment if it doesn't intend to use it? 
That is certainly the prevailing logic. But I think the more 
lightly explanation is that China's strategy, certainly in the 
near to medium term, is primarily defensive in nature, rather 
than offensive.
    If we look at the region that it is located in, it is 
corrupted by, say, a number of conflicting and competing 
challenges. It is a region that is filled with historical 
grievances. You have competing powers, such as Australia also 
has a naval fleet. And Japan has impressive capabilities, even 
if, to a degree, limited. You also have, say, unpredictable 
actors that are in the region. And so the conclusion that I 
would draw is that China's naval expansion would appear to be 
more geared toward ensuring their own territorial security as 
well as ensuring that sea lanes of communication remain open 
for commercial interests.
    And while this assessment does run counter to prevailing 
orthodoxy and it is clear that in the past few years, a label 
of ``assertive'' has been attached to China, particularly with 
regards to the East China and South China Seas and while the 
nature of this claim I think is, say, ambiguous, sort of 
elastic, if you will, isn't clearly grounded, I think you can 
look that China's behavior in these situations has not 
significantly deviated from past practices. You can argue that 
there has been provocation on the part of others. So other 
actors need to be taken into account.
    And I think you can make the point that, you know, China 
has been, say, more forthright in pressing its own claims, but 
whether--I don't think that you can argue in both cases that 
the claims are significantly new. Generally China uses a 
designation of core national interest to determine if it 
regards a particular territory as non-negotiable. And that has 
not been the case on both the Senkaku/Diaoyu Island dispute or 
the dispute in the South China Seas.
    So, because of time, I will sort of wrap up and just say in 
terms of implications for the U.S. in these regional 
developments, the particular concern seems to be, say, a 
security point of view. I think that you can make sort of 
arguments about sort of the assertiveness of China's behavior, 
but, regardless of that, I think the dispute between China and 
Japan appears to be the more serious. I don't think that the 
intention is to engage in conflict, but it is clear that there 
are increased Chinese incursions, increased Japanese responses. 
And so that increases the likelihood or the potentiality for 
some sort of conflict. And obviously that, then, brings in the 
U.S. and its security obligations. In terms of the South China 
Sea, it seems that negotiated compromise is more likely and 
possible and something that the U.S. should certainly press 
for.
    [The prepared statement of Mr. Sandby-Thomas follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Well, thank you very much. And we will 
have questions for the panel as we finish our testimony. Next 
we have Rick Fisher, who is a senior fellow, Asian Military 
Affairs at the International Assessment and Strategy Center, as 
well as a lengthy bio as well, which will be submitted for the 
record.
    Mr. Fisher, you may proceed with your testimony.

  STATEMENT OF MR. RICK FISHER, SENIOR FELLOW, ASIAN MILITARY 
     AFFAIRS, INTERNATIONAL ASSESSMENT AND STRATEGY CENTER

    Mr. Fisher. Chairman Rohrabacher, Ranking Member Keating, 
and distinguished members of this subcommittee, I would also 
like to thank you for this privilege to offer testimony to aid 
your deliberations. I would also like to offer my compliment to 
your leadership in looking beyond Europe and Eurasia to examine 
concerns with China.
    Just 2 weeks ago, I was called to address a NATO 
parliamentary committee on Chinese military modernization. And 
my experience at this meeting was that, indeed, there is great 
concern, especially when considering how China is pursuing its 
territorial claims in a way that is increasing the chances for 
conflict, either accidental or by design. I will just offer 
that just this past weekend, the Japanese Air Force had to 
scramble three times 3 days in a row to intercept threatening 
Chinese bombers that were conducting coordinated ship, 
submarine, and aircraft anti-ship exercises south of the 
Sakashima Islands, which if the Chinese ever succeed in 
grabbing the Senkaku Islands will be the next meal on the menu.
    In my testimony, I try to describe how China is building a 
force to achieve regional dominance. I estimate that absent a 
countervailing effort by the United States and its allies, that 
China could have its regional dominance by early in the next 
decade. This dominance is going to be expressed not just in 
hardware, expansive space control, missiles, expanded regional 
nuclear forces, fourth and fifth generation aircraft, naval 
forces with multiple aircraft carriers, a large amphibious 
projection capability, but China will practice and will have 
the skills to use this hardware to achieve its aims.
    Japan, of course, as I mentioned, is the target of the 
moment. Since the Japanese Government moved to purchase the 
Senkaku Islands in the Summer of 2012, a move which we have 
just found out was designed to try to ameliorate conflict with 
Beijing, the Chinese have put on an expanded paramilitary 
campaign to try to intimidate Japan into making concessions. It 
is not going to work. And my prediction is that the Japanese 
are going to rearm significantly because of this pressure and 
we will have a much more dangerous and more well-armed East 
China Sea by the end of this decade.
    But China probably believes that it can have more success 
in the South China Sea. It is succeeding in the last year in 
pushing the Philippines away from areas near its economic 
exclusion zone. Mr. Chairman, as you pointed out, in a recent 
New York Times article, Chinese Coast Guard ships are trying to 
dissuade the Philippines from supplying men on a beached LST on 
the Second Thomas Shoal.
    In the future, China is going to be building the means for 
global power projection. And it is going to be able to weigh in 
on other people's, other countries' territorial disputes. I 
would just offer that this year, I was able to find out by 
visiting arm shows that Argentina and China are considering the 
co-production of a Chinese fighter, a fighter that could be 
armed with a new Chinese hypersonic missile at a speed at which 
you can't shoot it down. China fully supports Argentina's claim 
to the Falklands. By the next decade, by the end of the next 
decade, will China be able to send aircraft carriers or 
amphibious groups to respond to a British attempt to defend the 
Falklands again?
    I conclude by noting that while the Obama administration's 
recent pivot to Asia over the last 2 to 3 years has been 
welcomed in the region, the momentum that the administration 
has built up is being undermined significantly by uncertainty 
surrounding our ability to pay for new programs to make good on 
our pledges and continue to ensure pledges that we have made to 
our allies, our military allies. We are not able to afford 
aerial exercises that we have planned. We are threatening to 
cut back our number of carrier battle groups and eliminate 
whole types of combat aircraft. This is very disturbing. And it 
will only encourage the Chinese to press harder.
    I believe we can deter China. I think we have it within our 
capability to encourage our allies to join a regional 
information-sharing network: Radar, space assets and the such, 
and then eventually tie this network to new ballistic missile 
capabilities: Short-range and medium-range systems that perhaps 
we share with our allies, intermediate-range systems that we 
deploy ourselves. If we can prove to China that, like on Dr. 
Pickert's Go board, that if they use their Navy, they can lose 
their Navy, then we can sustain deterrence and suggest to our 
Chinese friends that violence will not pay.
    Thank you very much.
    [The prepared statement of Mr. Fisher follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much for that testimony. We 
now have Steven Mosher, director of the Population Research 
Institute. And, again, all of our witnesses have lengthy 
resumes that will be included in the record.
    Go right ahead, Mr. Mosher.

 STATEMENT OF MR. STEVEN MOSHER, DIRECTOR, POPULATION RESEARCH 
                           INSTITUTE

    Mr. Mosher. Well, I commend the chairman, Chairman 
Rohrabacher and Ranking Member Keating, for holding this timely 
hearing. As Rick just mentioned, there have recently been 
renewed incursions by Chinese assets into Japanese territorial 
waters around the Senkakus and the Ryukyus in general, and I 
would note that a top Chinese general has actually questioned 
the legitimacy of Japanese claims, not just to the tiny 
Senkakus but to the entire Ryukyu Island chain, including 
Okinawa with its U.S. military bases. And knowing the situation 
in China, knowing that people rarely speak out of turn without 
being punished, I take such warnings, such suggestions by 
Chinese generals as tantamount to diplomatic announcements.
    Seemingly, everywhere we look, we see evidence of China's 
increasing aggressiveness. And I think it is past time to ask. 
I think, as the former Secretary of Defense Donald Rumsfeld did 
many years ago, why this ongoing military buildup when China 
faces no external threat? Why these provocative acts? What, 
after all, does China want? I think to suggest that Australia 
somehow poses a military threat to China is vastly overstating 
rather underpopulated Australia's desire to defend its own 
territorial waters from a country which now is in the process 
of trying to annex the entire South China Sea, which is a 
territorial claim roughly equivalent to as if Nazi Germany had 
declared before the outset of the conflict in World War II that 
it owned the entire Mediterranean. I mean, it is an 
extraordinary territorial claim.
    In May this year, Chinese troops intruded nearly 12 miles 
into Indian territory. It withdrew only after India agreed to 
withdraw its own troops from the area. And so this high-
altitude border dispute continues to simmer. The Indian Prime 
Minister is going to China, to Beijing, in a couple of days, 
apparently to sign a border cooperation agreement on Chinese 
terms, which I believe is what one Indian analyst called an 
exercise in course of military diplomacy, or bullying in short.
    China is sowing new seeds of conflict by continuing to 
expand its military presence in the South China Sea, where I 
know, Mr. Chairman, you have been personally. Last year, it 
seized the Scarborough Shoal, which lies off the coast of the 
Philippines, by force. When the Philippines protested, the PRC 
reacted by saying that the Philippines' claims were illegal and 
that it would never agree to international arbitrary over the 
shoal or any other claims. Now, that is important because the 
Philippines is now seeking U.N. assistance against China. And 
we, at least the current administration, seem to be extremely 
reluctant to back U.S. allies in the face of Chinese 
aggression. We have only said in the person of U.S. Secretary 
of State John Kerry that all countries have a right to seek 
arbitration to resolve competing territorial claims. We have 
not vigorously backed the obvious claim of the Philippines to 
territory which lies very close to its own homeland.
    I see China's behavior as reflecting something fundamental 
about the Chinese Party state. A government that rules its own 
people by brute force--we all remember Tiananmen--is naturally 
inclined to treat its smaller, weaker neighbors the same way, 
especially if they were, as in the past, tributary states of 
China. I think this accounts, in part, for the palpable disdain 
with which it treats the other claimants in the South China Sea 
dispute, including Vietnam and the Philippines, both of which 
have stronger claims for the Spratlies and Paracels than does 
China itself.
    I would also add to the death toll that you, Mr. Chairman, 
mentioned at the outset of this hearing in your remarks, to the 
death toll caused by the one-party dictatorship that rules 
China, we must add the 400 million eliminated by China's 
infamous one-child policy. I was an eyewitness to women being 
arrested and forced to be aborted at 7, 8, and 9 months of 
pregnancy in China in 1980. And those atrocities, those kinds 
of atrocities still continue today.
    Only the continued presence of U.S. assets, the U.S. 
Seventh Fleet in the Far East, stays China's hand. China has 
actually suggested that we withdraw to Hawaii and cede 
everything west of Hawaii to China. There is little doubt if 
that happened that China would then occupy the remaining 
islands in the South China Sea by force, ejecting the garrisons 
of other nations, and begin to demand the ships transiting its 
``interior waters'' would first seek permission to do so or run 
the risk of being boarded and quarantined. This is actually now 
the official policy of the Chinese Government as of last 
November. Beijing announced last November that Chinese 
authorities will board and seize control of foreign ships that 
``illegally enter'' the area that he claims is part of the 
Province of Henan. That is the entire area inside the 9-line.
    Now, seizing ships in international waters is an act of war 
under international law. I believe that China has been clear 
about its intentions in this regard.
    We could talk about continued double digit increases in the 
PLA's budget. We could talk about other new capabilities. But I 
am really less worried about China's capabilities than its 
intentions. I am concerned that China, which lacks transparency 
in terms of its military budget and in stating its intentions, 
is only emboldened by our careful and measured and nuanced and 
oftentimes too quiet response to acts of aggression. I think 
that emboldens the Chinese leadership and open society relies 
on comprehensive and accurate information to inform both its 
citizens and its allies of the common threats that they face.
    I believe we need another commission. And I realize there 
are a couple of commissions that serve to alert us to 
happenings in China now. But I believe we need another 
commission that focuses specifically on China's intentions. 
There is a precedent for that. I served on the U.S. Commission 
on Broadcasting for the PRC back in the '90s, which 
specifically looked at the question of whether or not we needed 
a radio-free broadcast system broadcasting into China news and 
information that was denied the Chinese people themselves by 
their state-censored media. The answer that we on the 
commission reached was yes, we did need such a broadcasting 
service. And it does yeoman work today.
    I believe we need another commission to look specifically 
at China's intentions. It would review; evaluate; and, if 
necessary, correct any understatements that are reached by 
other intelligence agencies. Such a check on the current 
administration consensus on China would be invaluable. Such 
reviews proved to be such during the Soviet era when a number 
of independent commissions reviewed Soviet military 
capabilities and intentions. This way we can get a timely, 
independent assessment of China's military intentions because 
in a few years, it will have the hardware it needs to undertake 
aggression, both in Asia and in different parts of the world. 
It is vital that we understand now before it gets that hardware 
how they intend to use it.
    Thank you.
    [The prepared statement of Mr. Mosher follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. I would like to thank all of my witnesses, 
all of our witnesses, today. And what we will have now is just 
some questions and answers. All right. And that is good. All 
right. As my staff recommends, I would suggest that I would 
like--well, first of all, let me just note this for the record. 
Our subcommittee focuses on Europe and Asia, central Asia, but 
it also in its definition talks about emerging threats.
    That is why we are here today. This is part of a discussion 
on what some of us believe is an emerging threat to the peace 
of the world and the security of the United States of America. 
And from the witnesses today, I would say we do have one voice 
of disagreement. And we will get into that discussion. And we 
are very happy to have you with us to promote that type of 
discussion because, of course, in countries like China, they 
don't have people on the other side of issues where they are 
being discussed, the other side of issues that the state has 
taken a stand on.
    I would like to ask the panel very quickly if you might 
mention any specific weapons systems that China is building 
that threatens America's naval or air or space assets. And 
maybe just go down the line just very quickly. Dr. Pickert, can 
you think of a weapons system that they are developing that you 
might warn us against?
    Mr. Pickert. I think specifically the sea power aspect is 
under the envelope of strategic conventional weapons. And the 
East Wind system of--these are essentially huge SCUD missiles 
that can operate from the bases in China to essentially any of 
these things which are being disputed can be blown off the face 
of the Earth without even leaving China.
    Mr. Rohrabacher. Are they accurate enough to be----
    Mr. Pickert. They don't have to be accurate. You just shoot 
20 of them, and they will knock off a whole corner of the 
universe. I don't know if you have ever seen an arc-light 
strike by B-52s, they take out a whole grid square of 
territory. This is a SCUD tactic. It is using mass attack on a 
particular place. And you have 20 missiles, all shooting at the 
same thing. And these islands are in specific areas where you 
have naval forces are simply deterred from using that space if 
it escalates to anything beyond local conflict. And the trouble 
with each of these areas is they cannot be held as territory 
because they can be obliterated.
    Mr. Rohrabacher. Mr. Fisher?
    Mr. Fisher. Mr. Chairman, I would call to your attention 
the system of weapons that the Chinese are developing and 
beginning to deploy, starting with a dual-use space program, 
both manned and unmanned, that provides targeting and 
communications and data links for missiles, like the anti-ship 
ballistic missile, new supersonic anti-ship missiles that are 
being carried today by Chinese bombers, future hypersonic anti-
ship missiles, not to mention what they will be putting on 
their aircraft carrier. As soon as that starts service in about 
2 to 3 years, it will have a fighter that is about as good as 
our F-18 Super Hornet. And submarines are being built like 
dumplings. And they are good, and they have air-independent 
propulsion so that they can stay underwater for a long time.
    And this is just what is going to be hitting us in Asia. In 
the next decade, China will have the wherewithal to project 
force around the world, both mechanized airborne and mechanized 
amphibious infantry supported by aircraft carriers and an even 
more robust space architecture.
    Mr. Rohrabacher. Mr. Mosher?
    Mr. Mosher. Well, I believe Mr. Fisher has hit on the key 
points here. And I would just say that China has rapidly 
upgraded the capabilities of its navy. And it has now a navy 
the largest force of major combatant submarines and amphibious 
warfare ships in Asia. And many of them are first-rate. China 
is constructing its own GPS satellite network. It has a ground-
launched anti-satellite capability capable of taking out our 
communications satellites and is developing a space plane, the 
Shunlong, which may have military capabilities.
    Mr. Rohrabacher. Here is your chance.
    Mr. Sandby-Thomas. Sure.
    Mr. Rohrabacher. Are these not a threat, Dr. Thomas?
    Mr. Sandby-Thomas. Well, I think they are fairly 
comprehensive. I think the big concern is, sort of as I noted, 
the guided missile destroyers in terms of how that impacts U.S. 
Navy operations, particularly for providing support, whether 
they could take out aircraft carriers. But some of it seems to 
be developing or being developed, probably close to production. 
I am not entirely clear.
    Mr. Rohrabacher. Let me just note that one of the sad 
aspects of the answers that we just got is that the source of 
research and development for many of the weapons systems that 
you are talking about are the American taxpayers. I mean, many 
of the weapons systems that China is developing are based on 
information that they have stolen and hacked and gotten from 
American industry. And sometimes they have actually stolen from 
our own Government operations. Is there any doubt about that? 
Can we comment on that? Yes, sir?
    Mr. Fisher. Acquisition of foreign technology is essential 
to the Chinese military research and development process. From 
the opening of our relations with China, Mr. Chairman, China 
has deployed tens of thousands of engineering students to the 
United States to study at our best schools and largely for the 
purpose of taking that information and experience back to China 
to apply to weapons programs. I can offer numerous citations of 
experts that work for NASA, went back to China, and are now 
helping to develop space planes, which will be used for 
military purposes.
    When China was developing its current fourth generation 
fighter, the J-10, it had to develop new composite materials 
for the air frame. It actually came to California and had those 
composites validated by an American company. It went back to 
China and put them into production. They work very fine. Thank 
you very much.
    Mr. Rohrabacher. I think that says it all. Thank you very 
much.
    Mr. Keating?
    Mr. Keating. Thank you, Mr. Chairman. Given our focus as a 
committee on Europe--and Mr. Fisher referenced NATO--I would 
just like to know how our European partners are responding to 
the recent developments in Asia. And should we be asking them 
to do more? And if so, what do you think the contributions they 
could bring might be?
    Mr. Fisher. Mr. Keating, it is a very important question. 
For 20 years, the United States Government has been engaged 
with our European allies over the issue of arms sales to China. 
The European Union established an embargo, as did the United 
States, after the Tiananmen massacre. The Europeans have, 
unfortunately, defined and redefined their embargo to allow 
more and more dual-use technology to go to China. And this is 
going directly in the People's Liberation Army.
    Eurocopter, for example, has a new full-up helicopter co-
development program, to include the engine with the Chinese 
helicopter industry. This will be a new modern, state-of-the-
art 6- to 7-ton helicopter. The Europeans tell me when I see 
them at numerous arms shows that no, this helicopter will never 
go into the PLA. But every other European helicopter that the 
Chinese have co-produced--and there are about four or five of 
them--they have all gone into the military. And naval engines, 
all Chinese non-nuclear submarines and new combatant ships use 
European-designed naval engines, large German-designed engines.
    I just found a citation a few weeks ago that the Chinese 
ship-building industry has purchased a state-of-the-art Spanish 
ship design three-dimensional software. And this is already 
helping the Chinese to develop better combat ships.
    When we find these examples, we should be quite insistent 
with our allies that this is not helpful, that this is actually 
creating problems for them because the sooner that China has 
the ability to wage war against Taiwan, which it is still 
building tremendously to conquer Taiwan, perhaps early in the 
next decade, attack Japan over the Senkaku/Diaoyu Islands, or 
enforce its outrageous and expansive claims in the South China 
Sea. Those could all possibly engage American forces in support 
of allies and detract, either in the short term or very likely 
also in the long term, to assist our European allies from 
threats that are growing against them as well.
    Mr. Keating. So you mentioned that there might be 
compromise because of their sales. When you gave your address, 
was there any concern from any of those countries about what 
was occurring through China's actions?
    Mr. Fisher. Oh, yes, a great concern, many questions. And 
the information that I was giving, surprisingly, was viewed as 
new. Many of the parliamentarians from our NATO ally countries 
who attended this conference simply did not have an 
understanding that China was at a point where it was 
threatening to start and cause wars.
    Our annual PLA military power report that the Pentagon has 
been issuing since early in the last decade really needs to be 
translated into multiple languages. It needs to be upgraded. It 
needs to be published as a book with pictures and charts. Yes, 
that may look like the old Soviet military power report of the 
1980s, but that is what our friends and our allies are looking 
for from the United States. We have to identify these threats 
in order to ask and encourage our allies to take them seriously 
and then respond appropriately.
    Mr. Keating. And I think all of our panel has addressed 
this in one way or another, but just to have a concise, you 
know, answer to this, if I could just go across our panel and 
just ask, how immediate is the threat for the China's maritime 
and territorial disputes? And could you just, you know, in very 
short language describe it as either short, medium-term risk of 
armed conflict? What is the time frame and how real is it, if 
we could just quickly go? I just want to zero in on that.
    Mr. Pickert. I will start at this end by saying that all of 
these disputes are essentially traps for points of opportunity 
for regional and local conflicts, one on one with small 
countries that cannot respond to them.
    Mr. Keating. So short, medium?
    Mr. Pickert. That is present right now all over the place. 
It is happening every day. And their strategic overview of that 
is to protect, to make sure that we do not interfere in that 
process.
    Mr. Keating. Mr. Fisher?
    Mr. Fisher. In the last 3 weeks, Japan has threatened to 
shoot down Chinese unmanned aircraft that would violate 
Japanese air space. A Chinese unmanned aircraft basically did 
that in early September, and it was intercepted. The Chinese 
have responded just this past weekend that the shoot-down of a 
UAV by Japan would be an act of war. This act of war could 
actually transpire at almost any time, Congressman.
    Mr. Keating. Short-term. Mr. Mosher?
    Mr. Mosher. The threat is immediate and ongoing. That is 
why Japan is building now its own brain expeditionary force to 
protect the Senkaku Islands and also the Ryukyus. It never felt 
the need of doing that before. It does now. So Japan feels an 
immediate threat. It is in the neighborhood. And I think we 
ought to look to Japan's response to calibrate our own.
    Mr. Keating. Mr. Sandby-Thomas?
    Mr. Sandby-Thomas. Yes. I would think the likelihood of 
conflict is higher now than, say, it was a year ago. In terms 
of immediacy, it seems that the potential for provocation on 
both sides is there, but I still don't think that war will 
break out, I guess.
    Mr. Keating. No, but there is consensus among all four of 
you that there could be conflict in the short-term that is 
escalating. And that is an interesting point that we should 
bear in mind and seek out our Europe allies and our partners in 
Europe so that there is better understanding of that. So I 
thank you very much. That was very helpful.
    And for the purpose of the rest of the hearing, 
Representative Lowenthal will be assuming the ranking 
membership. And I thank him for doing that and thank you 
because I think that last series of things put a time frame on 
some of the urgency of what we are facing.
    Thank you.
    Mr. Rohrabacher. And thank you very much.
    And, Mr. Lowenthal, who represents the district next to my 
district in Southern California and he also now represents a 
city that includes the Ports of Los Angeles and Long Beach. And 
these ports, of course, tie us to China. And events in China 
are very significant to Southern Californians. And we welcome 
his participation today.
    Mr. Lowenthal. Thank you. Thank you, Mr. Chair. I do agree 
that we have figured out ways between you and I to settle our 
disputes peacefully, not that we have that many.
    I just want to follow up on that last question about, 
really, the level of tension in terms of the maritime disputes 
and what really specifically at this moment should be the U.S. 
role. And I would like to start with Mr. Sandby-Thomas and then 
ask all of the panel, what now? Where do we go now for the 
United States in terms of this? If tensions have escalated, 
what specifically should we be doing today besides holding this 
hearing and learning about what is really going on and not 
denying the existence of the problems that are going on?
    Mr. Sandby-Thomas. Well, in terms of the East China Sea 
disputes, it is unclear necessarily an unsafe China strategy, 
but obviously there is this issue of energy around the islands. 
I think the islands in and of themselves don't really hold a 
huge amount of value. They are sure these barren rocks are 
uninhabitable.
    Mr. Lowenthal. Right.
    Mr. Sandby-Thomas. So there is energy, but that seems that 
that could be something of joint negotiation. There have been 
negotiations in the past. We jointly developed these. So that 
could be resumed.
    In terms of the Chinese position, it seems that the 
decision by the Japanese Government to purchase the islands may 
be, on the one hand, sort of changed how the islands are 
administered but, on the other hand, maybe indicated that Japan 
was--it kind of changed the status quo. And so the Chinese 
actions in that context, maybe I think they have a strategic 
value. If the Senkaku Islands weren't part of this first island 
chain, the Chinese incursion seems to be sort of testing 
Japanese resolve on this. I think they are testing both 
Japanese resolve, how far can China get, can it kind of break 
this chain, does it have an opportunity to do so, and how 
strong is the resolve between the U.S. and Japan. So would the 
U.S. defend Japan if there were a sort of conflict with the 
breakout?
    I think on the latter part, the U.S. has reiterated its 
obligations under the U.S.-Japan Security Treaty. So that seems 
fairly clear. The difficulty really resides in sort of the 
Japanese and the Chinese. And they have various competing sort 
of interests and aims. They have different audiences that they 
are playing to. Sort of obviously in terms of, say, Chinese 
domestic politics, negotiation with Japan is not so easy. And, 
particularly, I think some of the politicians in their 
statements have linked the Senkaku Island back to sort of 
Japan's sort of wartime actions within China.
    And on the Japanese side, it seemingly is the China threat 
is being sort of amplified to sort of push forward demands for 
increases in naval capability. So I think that is what 
contributes to the volatility.
    In terms of the U.S., I think it has sort of gone as far as 
it can. You know, I am not sure that it--I think, you know, it 
is important to indicate that the U.S. would intervene. And, 
you know, the likelihood of conflict I think is an immediate 
threat, but I wouldn't expect conflict to break other than 
through the sort of accidental issue. I don't think the 
intention of either side is to engage in conflict, but that is 
something that could change, hopefully, going forward.
    Mr. Mosher. Well, I would have to disagree, at least in 
part, with that assessment. I believe that China's leaders 
since Tiananmen massacre have deliberately stoked patriotism. 
They installed in the early '90s a patriotic education program 
in the schools. So that from kindergarten through college, the 
Chinese history textbooks are full of great Chinese Shogunist 
sentiments, talking about how China was once a great nation and 
will be again, how the Japanese, who are called in colloquial 
parlance in China ``dwarf barbarians,'' which is not a happy 
phrase, have periodically invaded and ravaged China. And they 
use this anti-Japanese sentiment in order to reinforce their 
own control over China. The appeal of communism in China has 
long vanished, but the appeal of patriotism still has a strong 
hold on the Chinese people.
    So, in part, these aggressive acts enable the Chinese 
leadership to say to the Chinese people, ``We are in the 
process of building a great and glorious China, equivalent to 
those in the Song, the Tang, the Ming dynasty.'' You see how we 
are asserting Chinese rights overseas in the Senkakus and the 
South China Sea and elsewhere. We are going to bring these 
tributary states to heal.
    I happen to believe that without the calming presence of 
U.S. assets in Asia, that Chinese open aggression would have 
already occurred vis-a-vis the Philippines, for example, last 
year in Scarborough Shoal. Were it not for the possibility of 
U.S. intervention, the Chinese might well have sank the 
Philippine patrol boats. Instead, they drove them off a water 
cannon.
    Last year they cut the towed sonar arrays of Vietnamese 
survey vessels. They were trying to survey waters immediately 
off Vietnam's coast, but that is part of the extraordinary 
territorial claim made by China. They cut the survey cables and 
drove the Vietnamese ships back to port. They might have 
behaved even more aggressively were they not worried about the 
possibility of the U.S. intervention. The same thing with 
regard to their last November claim that they had the right to 
intercept, interdict, and board ships in the South China Sea. 
We guarantee freedom of the seas, freedom of navigation. And as 
long as the U.S. remains engaged in Asia and reassures its 
allies that we will be there in the event of conflict, China 
gets that message loud and clear.
    So I think for us to equivocate or not state clearly what 
our position is encourages aggression and that, as in the 
1880s, when we faced a different kind of threat, we can achieve 
peace in Asia through strength but certainly not by 
telegraphing weakness.
    Mr. Fisher. Congressman, I would like to answer your 
question by also saying that if we do nothing today, then we 
risk the danger in the short term of having our allies possibly 
defeated in skirmishes around Senkakus, in the South China Sea, 
but that this is simply unacceptable. If our allies are 
undermined, if they lose confidence in their alliances with the 
United States, they have alternatives. And in my opinion, they 
will develop their own nuclear missiles, Japan perhaps, 
followed by South Korea, followed by Vietnam and Australia. It 
could happen rather quickly. And after that, the prospect of a 
skirmish, being one that escalates to a nuclear exchange that 
we are drawn into, is real.
    So, sir, I would suggest that, as Steven suggests, we have 
to be very clear to the Chinese about what we consider 
unacceptable behavior. And we have to support our friends and 
allies. We have to make clear that we are there to back up our 
alliances, that we are there to support our longstanding 
friendship with Taiwan by selling them the systems that they 
need to deter war because if we fail to do this, we are, as 
Steven, I would agree completely, inviting conflict. And those 
conflicts very well could consume our own.
    Thank you.
    Mr. Pickert. Well, I think the most important thing is to 
maintain relationships over a long period of time with the 
peripheral states, especially ASEAN in this case, because that 
was developed as a counter-alliance to China almost 50 years 
ago and still is. The problem is our relationships bilaterally 
with those countries are not really integrated into a 
comprehensive strategy. They are only one-on-one meetings, 
photo ops at a certain time wearing some kind of ridiculous 
outfit in a photo op. Our relationships have to go beyond that 
into long-range ties with the countries, which, especially in 
the cases where we don't have those ties, like Vietnam, it is 
important to build them. And in places where we have had long 
ones and are essentially neglecting them now, such as with 
Thailand, which is a very big and important country, cutting 
back on our military relations, which I know we are doing, is a 
bad, bad sign. And, therefore, we should spend a little money 
on the relationships as more important than hardware, which is 
essentially really checkmated by the strategic missile systems 
that are being built.
    Mr. Rohrabacher. Well, thank you very much. I thank our 
witnesses today and my colleagues. I will just do a summary. 
And then we will bring this to an end.
    Let me just--we live in a changing world. This is a very 
changing world. My father flew the first DC-3s into Shanghai in 
the final months of the Second World War. And he always told me 
how he was sent there from the Philippines, where they have 
been flying up and down from the Philippines. And when they 
landed, their job was to make sure that that airport was 
available so that we could now have input into Shanghai, which 
had been under Japanese occupation. And things had broken down 
there. And so they were sent in. And when he got to Shanghai 
with a number of DC-3s and filled with Marines and equipment, 
set up communications, et cetera, an American presence in that 
city, the first thing he did was get off the airplane and 
grabbed what appeared to be a Chinese official or someone who 
knew what was going on and said, ``Where is the home of the 
Japanese commanding officer?''
    And he said, ``Oh, it is a big house over there.''
    And then my father lined up his Marines and marched up to 
the house and knocked on the door. An older man, Japanese man, 
answered the door. And my father said, ``This house is now 
being confiscated by the United States Marine Corps. You will 
vacate within \1/2\ hour and not come back.'' My father was 24 
years old, had never been out of North Dakota before World War 
II. It is the kind of influence that we were exercising 
throughout the world.
    And I saw a thing about last night I was up watching a 
documentary on the Battle of the Bulge. And he had all of these 
18- and 19-year-old Americans. They were facing the German 
Army. And America since that time period has spread out from 
the heartland of our country to be this huge force in the 
world. We no longer have that ability. We no longer can afford 
to be the dominant force in the planet militarily. We don't 
have the capability of having our young men go to a foreign 
country and knock on the door and tell the aggressor to get out 
of the building or to send 18- and 19-year-olds as cannon 
fodder to stop an invasion by a totalitarian force in Europe.
    We were mentioning we are not spending as much money. Well, 
if we do, we have to borrow it from China in order to spend it. 
What does that tell you? The world is a changing situation. We 
have to come up with a strategy that works to promote peace in 
the world and also freedom in the world, which I believe peace 
and freedom go together. They are two sides of the same coin. 
And that is why we need to talk about these serious challenges. 
And I believe that as we develop a strategy for the future, we 
have to understand the threat in Asia and the threat that China 
plays to our planet, first to the Pacific and to our planet.
    The testimony we had today on the expansion of Chinese 
missile and space power; the expansion of the submarine fleet, 
Chinese submarine fleet; and the utilization of Chinese air 
power expanding by utilizing Western technology, perhaps 
Argentineans, et cetera, this means that we have a challenge, 
but at the same time, we have our limitations. All of this has 
to be put into given a lot more thought, given a lot more 
discussion, as we have had today.
    Let me just note that when I hear that the Germans are 
working with the Chinese to develop certain weapons systems, I 
can't help but not be so upset that some of our people might be 
listening in to the German Government's conversations. I know 
Mrs. Merkel may not like to hear that, but the fact is that our 
intelligence systems need to keep us informed of the 
development of this type of threat.
    And, finally, let me just say we don't live in a world 
where a 24-year-old young man goes and confronts a Japanese 
general who is engaged in an aggressive act in China. We live 
in a world, instead, that you have an aggressive posturing by 
China and a bullying of its neighbors by a government in 
Beijing that is the world's worst human rights abuser.
    I think the most important statement made in today's 
hearing was that a country, a government that so tortures its 
own people, so represses them and murders them, how can we 
expect them to treat other neighboring weak countries any 
better than they treat their own people? And if that does not 
forbode us or to warn us, what does? The fact is the way they 
treat their own people, they will treat the rest of the world.
    And Japan, we need to make sure Japan, which can be a very 
positive force, that we need to not be afraid of Japan anymore. 
We need to make sure that where we cannot afford to balance off 
this expansion of Chinese power and military power in the 
Pacific, we can't afford that, but we can afford to work with 
Japan, who with their contribution can help balance off that 
shift in power and, thus, help ensure the peace of the world. 
We should be working with the Japanese for that end.
    With that said, this hearing is now adjourned.
    [Whereupon, at 11:39 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


      <F-dash>\<n-iden-3><pound><box> stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 <F-dash>\<because><F-dash><Register>s <n-iden-3><pound><box> t<pound> 
               <Hoarfrost>a<Rx><star>b<variable><ellipse>
                   <func.-of><star><pound><acctof>as\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 <F-dash>\<because><F-dash><Register>s <n-iden-3><pound><box> t<pound> 
             <n-iden-3><careof><star><loz><box><natural>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 <F-dash>\<because><F-dash><Register>s <n-iden-3><pound><box> t<pound> 
                 <F-dash><careof>s<star><box><natural>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
